November 7, 2007

ELLIS A. BURGOYNE
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT: Audit Report – The Postal Service’s Violence Prevention and Response
         Programs in Three Southwest Area Performance Clusters
         (Report Number HM-AR-08-003)

This report presents the results of the U.S. Postal Service Office of Inspector General’s
(OIG) self-initiated audit of the Postal Service’s violence prevention and response
programs in three Southwest Area Performance Clusters (PC) (Project Number
06YG044HM004). The Southwest Area was one of five areas judgmentally selected
from the nine Postal Service areas of operation.1 Our overall objective was to
determine if the violence prevention and response programs in the Albuquerque, Dallas,
and Fort Worth PCs effectively reduced the potential for violence. Specifically, we
determined whether (1) the PCs implemented required controls (policies and
procedures) to reduce the potential for violence and (2) oversight of the workplace
violence prevention program at the area and PC levels was adequate.

This report is the third in a series of six reports we will issue on the violence prevention
and response programs in 15 PCs. The sixth report will summarize the conditions
reported in all 15 PCs, management’s actions to correct the conditions, and issues
identified with nationwide impact.

We concluded the Albuquerque, Dallas, and Fort Worth PCs established threat
assessment teams (TAT) and took some positive steps to reduce the potential for
violence such as conducting climate assessments and Voice of the Employee (VOE)2
focus groups. However, the PCs’ violence prevention and response programs may not
be fully effective in reducing the potential for violence because the district and plant
managers (PC managers) and the TATs did not implement many of the required
policies and procedures to reduce the potential for violence. In addition, the Southwest
Area and PC managers did not provide adequate oversight of the violence prevention
and response programs to ensure compliance with policies and procedures.

This report includes 14 recommendations to help the Southwest Area, its PCs, and its
TATs improve the effectiveness of the violence prevention and response program.
1
  The five areas reviewed were Capital Metro, Northeast, Pacific, Southeast, and Southwest.
2
  The VOE Survey is a data collection instrument used to obtain information from career employees regarding how
they feel about their workplace environment. The Postal Service uses this information in a number of ways, to
include ensuring employees feel safe in their workplaces.
The Postal Service’s Violence Prevention and                               HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

Implementation of these recommendations will also improve the safety and security of
employees and prevent harm to the Postal Service’s reputation (goodwill). We will
report these non-monetary impacts in our Semiannual Report to Congress.

Management agreed to implement all 14 recommendations, and the actions taken or
planned should correct the issues identified. Management’s comments and our
evaluation of these comments are included in the report.

                                          Background
The Postal Service has long recognized the importance of ensuring the safety of its
employees by creating and maintaining a work environment that is violence-free. In
addition, the agency is obligated under the Occupational Safety and Health
Administration’s (OSHA) “General Duty” clause to provide a safe and healthful working
environment for all workers covered by the Occupational Safety and Health Act (the
OSH Act) of 1970. To prevent violence in the workplace and minimize the potential risk
the Postal Service established the following criteria:

   •   The Administrative Support Manual (ASM) requires security control officers or
       their designees to conduct annual facility security reviews.

   •   The Joint Statement on Violence and Behavior in the Workplace (Joint
       Statement) signed by union and management association presidents and the
       Deputy Postmaster General in 1992 states the Postal Service will not tolerate
       violent and inappropriate behavior by anyone, at any level. (See Appendix B for
       a copy of the Joint Statement.)

   •   The Threat Assessment Team Guide (Publication 108) requires TATs to assess
       and respond to violent and potentially violent situations. The guide outlines six
       strategies designed to assist the TATs: (1) selection, (2) security,
       (3) communication of policy, (4) environment and culture, (5) employee support,
       and (6) separation.

The strategies are an integral part of the Postal Service’s Strategic Transformation Plan
2006 - 2010 which identifies engaging and motivating the workforce as one of its goals.
A key transformation strategy for achieving this goal is maintaining a safe work
environment for all employees. This audit reviewed implementation of three of the six
strategies—security, communication of policy, and environment and culture.

                        Objectives, Scope and Methodology
We discuss our objectives, scope and methodology in detail in Appendix C.

                                   Prior Audit Coverage

We discuss prior audit coverage in Appendix D.


                                               2
The Postal Service’s Violence Prevention and                                HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

                                               Results
The following summarizes our findings and recommendations regarding the
Albuquerque, Dallas, and Fort Worth PCs’ violence prevention and response programs.
Additional details regarding our findings are in Appendix E.

Security Strategy - Ensure appropriate safeguards for employees, customers, and
property.

The three PCs may not have ensured that facilities had appropriate security safeguards
in place. The Albuquerque, Dallas, and Fort Worth PC security coordinators stated that
corrective actions were taken on the security and safety deficiencies identified at
facilities within the three PCs in fiscal year (FY) 2006. However, xx xxxxxxxxxxxx did
not maintain documentation regarding the actions taken or how the actions corrected
the deficiencies.

Appropriate security safeguards assist in preventing violence in the workplace. One
such safeguard is preventing unauthorized individuals from gaining access to postal
facilities by securing doors. The FY 2006 VOE Survey results for the Albuquerque,
Dallas, and Fort Worth PCs indicate that numerous employees were concerned that
unauthorized individuals could gain access to facilities in their PCs. (See Appendices F,
G, and H for additional details regarding VOE Survey responses.)

In FY 2007, the Southwest Area security coordinator took corrective action to ensure
documentation was maintained. We are making no recommendations in this area since
management’s corrective actions addressed the security issues.

Communication of Policy Strategy - Consistently communicate and enforce
Postal Service policy regarding violent and inappropriate behavior.

Zero Tolerance Policy Postings Could be Improved

The three PCs disseminated copies of their current local zero tolerance policy to all PC
employees in FY 2006 through stand-up talks and new employee orientation classes.
However, management could improve their procedures for posting their zero tolerance
policy, which sometimes was not posted at all, was not current, or was not complete.

Properly posting the zero tolerance policy may reduce the potential for violence in the
workplace. For example, posting the current policy makes important information
available on the workroom floor, where employees may need it most.




                                                  3
The Postal Service’s Violence Prevention and                                                   HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

Corrective Action

As a result of this audit, xxx xxxxxx PC updated its zero tolerance policy on
March 15, 2007. The policy included procedures for employees to report incidents and
instructions for posting the policy in PC facilities. In addition, xx xx xxxxxxx xxxxxx the
policy was mailed on March 30, 2007, to all PC employees. The policy did not,
however, include the lead plant manager’s signature. When both PC managers sign the
zero tolerance policy, it reaffirms to all employees the managers’ commitment to a
violence free workplace.

Recommendations

We recommend the Vice President, Southwest Area Operations:

    1. Direct the Albuquerque, Dallas, and Fort Worth Performance Cluster managers
       to implement an internal control to ensure their current zero tolerance policy is
       properly posted in all facilities, at least annually. For example, facility managers
       could provide written annual certifications to the performance cluster threat
       assessment teams.

    2. Direct xxx xxxxxx Performance Cluster managers to update their zero tolerance
       policy to include the lead plant manager’s signature.

Workplace Violence Awareness Training Needed for Some Employees

The Albuquerque, Dallas, and Fort Worth PC and Human Resources (HR) managers
ensured most employees and TAT core members3 received the required training.
However, the HR managers did not ensure that all managers, supervisors, and 204b
supervisors4 received the required 8-hour (one-time) workplace violence awareness
training.

Postal Service employees who do not receive this training may not be effective in
recognizing, preventing, and responding to violent and potentially violent situations.

Recommendations

We recommend the Vice President, Southwest Area Operations:

    3. Notify the Albuquerque, Dallas, and Fort Worth Performance Cluster managers
       that workplace violence awareness training is a fiscal year mandatory
       requirement, and it is their responsibility to ensure that training occurs, preferably
       during non-peak operational periods.


3
  TAT core members include the HR manager or designee, labor relations manager, medical director or occupational
health nurse administrator, district manager or designee, and lead plant manager or designee.
4
  A 204b supervisor is a bargaining employee detailed to an acting supervisor position.


                                                       4
The Postal Service’s Violence Prevention and                                                           HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

    4. Direct the Albuquerque, Dallas, and Fort Worth Performance Cluster managers
       to determine which managers, supervisors, and 204b supervisors have not
       received the 8-hour (one-time) workplace violence awareness training, and
       provide the training as soon as possible.

    5. Instruct the Albuquerque, Dallas, and Fort Worth Performance Cluster managers to:

         •    Remind Human Resources managers of their responsibility to conduct
              periodic reviews (at least quarterly)5 to determine if management has met the
              mandatory workplace violence awareness training requirements for all
              employees (including 204b supervisors).

         •    Implement a control to ensure Human Resources managers conduct periodic
              reviews to determine which managers and supervisors did not receive the
              violence awareness training.

Strategies to Enforce Postal Policy Not Fully Implemented

The Albuquerque, Dallas, and Fort Worth TATs did not fully implement violence
prevention strategies to ensure incidents of violent and inappropriate behavior were fully
addressed in accordance with the TAT Guide. We identified 146 incidents reported to
the xxxxxx xxx xxxx xxxxx TATs in FY 2006 and determined these incidents were not
properly addressed in accordance with the TAT Guide. Incidents reported to the
Albuquerque TAT were not documented (no incident case files) and may not have been
addressed.

Opportunities to prevent a violent incident from occurring diminish when management
does not fully implement violence prevention strategies to properly address potentially
violent incidents. In addition, management needs to appropriately and immediately
respond to potentially violent incidents. For example, VOE Survey quarterly reports for
the three PCs indicate many employees were concerned they were working in an
unsafe environment and could be victims of physical violence.

Recommendations

We recommend the Vice President, Southwest Area Operations:

    6. Remind the Albuquerque, Dallas, and Fort Worth Performance Cluster managers of
       their responsibility to ensure threat assessment teams comply with the Threat
       Assessment Team Guide when responding to and resolving incidents of violent and
       inappropriate behavior.



5
  Quarterly reviews would provide sufficient time to schedule employees for training within the fiscal year it is
required.
6
  We reviewed seven xxxxxx and seven xxxxxxxxxx PC incidents.


                                                            5
The Postal Service’s Violence Prevention and                                                          HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

    7. Direct the Albuquerque, Dallas, and Fort Worth Performance Cluster managers
       to implement a control to ensure threat assessment teams comply with the
       Threat Assessment Team Guide when responding to and assessing reports of
       potentially violent situations and inappropriate behavior.

    8. Direct the Albuquerque, Dallas, and Fort Worth threat assessment teams to review
       the incidents that had insufficient or no supporting documentation and determine if
       they were resolved in accordance with the Threat Assessment Team Guide.

Environment and Culture Strategy - Create a work setting and maintain an
atmosphere perceived to be fair and free from unlawful and inappropriate
behavior.

Monitoring and Evaluating Workplace Climate Indicators

The three PC HR managers took positive steps toward creating an atmosphere
perceived to be fair and free from unlawful and inappropriate behavior. For example,
two HR managers disseminated zero tolerance policies to all employees and all three
HR managers provided some formal employee training. The HR managers also
monitored and evaluated VOE Survey scores and focus groups, numbers of grievances
and Equal Employment Opportunity (EEO) complaints, climate assessments, and Flash
Reports7 to identify events that could escalate the potential for violence. However, the
managers did not document how (or how often) they monitored and evaluated climate
indicators, other than their quarterly monitoring and evaluation of the VOE Survey
results.

Effective monitoring can create a work setting and atmosphere that is perceived to be
fair and free from unlawful and inappropriate behavior. For example, documenting the
evaluation of climate indicators from previous quarters allows management to identify
trends and hotspots to reduce the potential for violence. While the VOE Survey is an
important indicator of the workplace climate, it only reports results at the facility level
when 10 or more employees respond. In that regard, the VOE Survey should not be the
only climate indicator documented because it does not represent all facilities.

In addition, we reviewed 35 complaints the OIG Hotline received during FY 2006 and
found that some employees in these PCs reported workplace environment issues.
Some of these employees sent their workplace environment complaints to the OIG
because they believed they had exhausted all avenues for resolution in their workplace.
We believe employees could view work sites where management proactively moderates
the risk of violent situations as the agency’s commitment to the zero tolerance policy.




7
 A Flash Report is an operations report for a specific facility that shows workhour usage, productivity, sick leave, and
overtime rates for that facility.


                                                           6
The Postal Service’s Violence Prevention and                                                       HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

Recommendation

We recommend the Vice President, Southwest Area Operations:

      9. Direct the Albuquerque, Dallas, and Fort Worth Performance Cluster managers
         to ensure the threat assessment teams document their evaluations of climate
         indicators to identify trends and hotspots.

Team Process and Performance Measures Could be Improved

TAT Members, Meetings, and Minutes

The three TATs had the requisite number and type of team members. xxx xxxx xxxxx
TAT consistently conducted quarterly8 meetings, and properly prepared and
disseminated meeting minutes to the required TAT members, per the TAT Guide.
However, the xxxxxxxxxxx xxx xxxxxx TATs did not consistently conduct quarterly
meetings and properly prepare and disseminate minutes.

A TAT not conducting and properly documenting meetings runs the risk of not achieving
the TAT’s primary mission—preventing workplace violence.

Corrective Action

The Postal Service Headquarters Employee Assistance Program (EAP)/Workplace
Environment Improvement (WEI) office established a web-based TAT Membership and
Meeting Tool to ensure management conducts and documents TAT meetings, and
disseminates meeting minutes in accordance with the TAT Guide. Effective March
2007, each PC is required to timely update the information for their TAT.

Recommendation

We recommend the Vice President, Southwest Area Operations, direct the Albuquerque
and Dallas Performance Cluster managers to:

      10. Remind the Human Resources managers of their responsibility to conduct
          meetings, and properly document and disseminate the minutes to the
          appropriate threat assessment team members.

TAT Performance Measures

The xxxxxx xxx xxxx xxxxx HR managers stated they implemented performance
measures such as verbal feedback from employees and informal TAT discussions to
gauge whether the TATs were successful or needed to change their processes.
However, management did not document the measures and the measures may not be


8
    The Postal Service modified the TAT Guide in March 2007 to require meetings twice a quarter.


                                                           7
The Postal Service’s Violence Prevention and                              HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

adequate. The xxxxxxxxxxx xx xxxxxxx xxxxxx xxx TAT did not discuss or establish
measures to evaluate the team’s performance.

TATs cannot provide assurance that their efforts to prevent violent incidents in the
workplace were successful or needed improvement when the measures used are not
documented. In addition, using the primary measures suggested in the TAT Guide may
provide more useful information to identify areas for TAT improvement.

Recommendations

We recommend the Vice President, Southwest Area Operations, instruct the
Albuquerque Performance Cluster managers to:

   11. Direct the threat assessment team to implement performance measures to
       gauge whether the team’s efforts and processes to prevent violent incidents in
       the workplace are successful or need improvement.

We also recommend the Vice President, Southwest Area Operations, direct the
Albuquerque, Dallas, and Fort Worth Performance Cluster managers to:

   12. Implement controls to ensure threat assessment teams document the processes
       used to measure the teams’ performance, as required by the Threat
       Assessment Team Guide, and ensure the measurements used are adequate for
       determining success and identifying areas for improvement.

Oversight of the Workplace Violence Prevention Program

Our review of TAT activities indicated the Albuquerque, Dallas, and Fort Worth PC and
Southwest Area HR managers did not provide adequate oversight of the violence
prevention and response programs. The PC managers did not ensure the three TATs
implemented many of the required policies and procedures to reduce the potential for
violence related to security, communication of policy, and the environment and culture.
The PC and HR managers also did not ensure TATs followed appropriate processes
and documented performance measures.

Adequate oversight at the area and PC levels could reduce the potential for violence.
Specifically, when TATs do not follow important workplace violence prevention and
response program policies and procedures, the teams may not be fully effective in
reducing the potential for violence.

The internal controls recommended in this report for the Albuquerque, Dallas, and Fort
Worth PC managers, if implemented, should provide sufficient oversight of the TATs at
the PC level. As a result, we have no additional recommendations for PC managers
regarding communication of policy and environment and culture strategies.




                                               8
The Postal Service’s Violence Prevention and                               HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

Recommendations

We recommend the Vice President, Southwest Area Operations:

   13. Implement an internal control to ensure Southwest Area Performance Cluster
       managers provide adequate oversight of their threat assessment teams to
       improve the effectiveness of the violence prevention and response programs.
       For example, performance cluster managers could provide the area Vice
       President with an annual certification that the teams are conducting business in
       accordance with the Threat Assessment Team Guide and related Postal Service
       policies.

   14. Determine if the findings in this report exist in the remaining Southwest Area
       Performance Clusters - Arkansas, Houston, Louisiana, Oklahoma, and Rio
       Grande - and, where necessary, take action to ensure management implements
       adequate controls.

Management’s Comments

Management agreed with all but one of the findings. Specifically, management stated in
the response for recommendation 2 there was no requirement in either the 2002 or
2007 TAT Guides for the lead plant manager to sign the zero tolerance policy.
Management acknowledged, however, that the sample policy statements in both guides
provide a place for that signature, and they agreed to implement the recommendation.

Management agreed to implement the other 13 recommendations but did not provide
completion dates for their corrective actions taken or planned.

In subsequent correspondence, management also agreed with the non-monetary
impact we reported. Management’s comments, in their entirety, are included in
Appendix I.

Evaluation of Management’s Comments

Management’s comments are responsive, and the actions taken or planned should
correct the issues identified in the findings. We encourage management to establish
completion dates for corrective actions, which will help to ensure actions are taken.

We disagree with management’s statement that there is no requirement in the TAT
Guides for the lead plant manager’s signature on the local zero tolerance policy. While
there is not a specific statement in the TAT Guides that the lead plant manager must
sign, the guides direct the reader to the sample policy statements, which refer to
leadership as “we” in several locations and include space at the bottom of the
statements for the signatures of both the district and lead plant managers.




                                               9
The Postal Service’s Violence Prevention and                              HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

The OIG considers recommendations 1 through 5, 7 through 9, and 11 through 14
significant, and therefore requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Chris Nicoloff,
Director, Human Capital, or me at (703) 248-2100.

 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc:    Mary Anne Gibbons
       Anthony J. Vegliante
       Doug A. Tulino
       Victor H. Benavides
       Carl T. January
       Linda J. Welch
       Peter Sgro
       Sandra J. Savoie
       Katherine S. Banks




                                               10
The Postal Service’s Violence Prevention and                     HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

                                   APPENDIX A. ACRONYMS

ASAP           Area Security Assessment Program
ASM            Administrative Support Manual
EAP            Employee Assistance Program
EEO            Equal Employment Opportunity
FOIA           Freedom of Information Act
FY             Fiscal Year
HR             Human Resources
NTD            National Training Database
OIG            U.S. Postal Service Office of Inspector General
OSHA           Occupational Safety and Health Administration
OSH Act        Occupational Safety and Health Act
PC             Performance Cluster
TAT            Threat Assessment Team
VOE            Voice of the Employee
WebEIS         Web-Enabled Enterprise Information System
WEI            Workplace Environment Improvement
WIA            Workplace Improvement Analyst




                                               11
The Postal Service’s Violence Prevention and        HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

 APPENDIX B. JOINT STATEMENT ON VIOLENCE AND BEHAVIOR IN
                      THE WORKPLACE




                                               12
The Postal Service’s Violence Prevention and                                                     HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters


         APPENDIX C. OBJECTIVES, SCOPE, AND METHODOLOGY
The overall objective of this audit was to determine if the Postal Service’s violence
prevention and response programs in selected locations were effective in reducing the
potential for violence. Specifically, we determined whether (1) the Albuquerque, Dallas,
and Fort Worth PCs implemented required controls (policies and procedures) to reduce
the potential for violence and (2) oversight of the workplace violence prevention
program at the area and PC levels was adequate.9

To evaluate the workplace violence prevention and response program in the Southwest
Area, we judgmentally selected the Albuquerque, Dallas, and Fort Worth PCs from the
eight PCs in the Southwest Area. We selected these PCs based on an analysis of
seven workplace environment climate indicators for FYs 2004 through 2006.10 We took
steps to ensure the sample was representative of PCs where the indicators show the
climate was good and where the climate was troubled. We also considered whether the
PC appeared on the Postal Service’s troubled worksite list11 and whether the OIG
conducted prior workplace environment audits in the PC. Finally, we reviewed the FY
2006 Area Security Assessment Program (ASAP) reviews to determine the deficiencies
identified and if the PCs took actions to correct them.12

We interviewed the PCs’ HR, Labor Relations, and Training Managers; the Workplace
Improvement Analysts (WIA); and the area’s HR manager and analyst to determine
whether (1) the selected PCs had implemented required controls to reduce the potential
for violence and (2) Postal Service internal controls existed to provide adequate
oversight of the program at the area and PC levels. We also reviewed the TAT and
safety meeting minutes, conference agendas, and reports used to monitor and enforce
polices and procedures to reduce violence in the workplace. In addition, we reviewed
the TAT Guide, the ASM, the Joint Statement, and the OSHA “General Duty” clause to
provide a safe and healthful working environment for all workers covered by the OSH
Act of 1970.

We reviewed the following data and information pertaining to the PCs’ activities related
to the violence prevention and response program:

     •   Zero tolerance policies and action plans.
     •   VOE Vital Few List.13
     •   Attendance records for required workplace violence awareness training.
9
  We will address oversight at the headquarters level in a separate report.
10
   The seven climate indicators are the VOE Survey scores, grievances, EEO complaints, EAP referrals, climate
assessments, OIG Hotline complaints, and OIG congressional inquiries regarding workplace environments.
11
   Troubled worksites are facilities where evidence exists of an ongoing history of behavioral factors that remain
unresolved at the PC and area levels.
12
   The ASAP was a broad facility review of about 16 yes/no questions regarding core national and area security
items. The OIG report titled Postal Inspection Service Security Controls and Processes - Area Security Assessment
Program (Report Number SA-AR-07-004, dated July 10, 2007) identified that ASAPs were duplicative of security
reviews performed by the Postal Inspection Service and the reviews have been discontinued.
13
   The VOE Vital Few List identifies PC facilities with the largest opportunity for VOE Survey score improvement.


                                                        13
The Postal Service’s Violence Prevention and                                                      HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

     •   TAT incident reports and responses.
     •   Safety talks.
     •   Numbers of grievances and EEO complaints.
     •   Numbers of assaults and credible threats.
     •   HR managers’ and staff roles and responsibilities in the workplace violence
         prevention and response programs.

Although we relied on data obtained from the EEO Complaints Tracking System,
Grievance Arbitration Tracking System, Inspection Service Integrated Information
System, National Training Database (NTD), payroll database, and the Web-Enabled
Enterprise Information System (WebEIS), we did not test the validity of the data and
controls over the systems. We believe the computer-generated data was sufficiently
reliable to support the opinions and conclusions in this report.

We conducted this performance audit from January through November 2007 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances.14 Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on August 17, 2007, and
included their comments where appropriate.




14
   For example, we reviewed internal controls related to the posting and dissemination of PC zero tolerance
statements, FY 2006 workplace violence awareness training records, TAT incident case files, climate indicators used
to monitor and evaluate PC workplace environments, TAT meeting frequency and minutes, and performance
measures used to evaluate TAT performance.


                                                        14
The Postal Service’s Violence Prevention and                              HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

                     APPENDIX D. PRIOR AUDIT COVERAGE
The OIG report titled Postal Inspection Service Security Controls and Processes - Area
Security Assessment Program (Report Number SA-AR-07-004, dated July 10, 2007)
indicated that management did not effectively and efficiently use the ASAP to assess
Postal Service security and compliance with security policies and procedures.
Specifically, management developed and implemented the national standardized ASAP
without guidance or approval from the Postal Inspection Service, which has primary
responsibility for security at the Postal Service. As a result, Postal Service
management used its own personnel to conduct ASAP reviews, the results of which the
Postal Inspection Service did not take into account when assessing security operations.
Additionally, Postal Service management expended approximately $144,000 on the
ASAP database, however, the information in the database was not reliable. We
recommended and management agreed to discontinue the use of the ASAP given that
the Postal Inspection Service does not use the results to assess security operations in
the Postal Service, and it is similar to security reviews the Postal Inspection Service
currently performs.




                                               15
            The Postal Service’s Violence Prevention and                                                                                                   HM-AR-08-003
             Response Programs in Three Southwest Area
             Performance Clusters

                        APPENDIX E. ALBUQUERQUE, DALLAS, AND FORT WORTH
             PERFORMANCE CLUSTERS’ CONDITIONS AND CAUSES RELATED TO AUDIT OBJECTIVES

Objective 1 – Determine if the PCs implemented required controls (policies and procedures) to reduce the potential for
             violence.
1. Security Strategy - Ensure appropriate safeguards for employees, customers, and property.
Condition          PCs may not have ensured that appropriate security safeguards were in place and complied with at many facilities.            X                X          X
                   •  PC and area managers did not maintain documentation that showed the actions taken and how the actions
                      corrected the 137 security deficiencies identified in 79 FY 2006 ASAP reviews. For example, the reviews
                      identified that in the Albuquerque and Dallas PCs some exterior doors/access points to facilities were not
                                                                                                                                                X                X          X
                      secured (three deficiencies), and unauthorized access to some Fort Worth facilities was not challenged
                      (three deficiencies).

Cause              Management did not require installation heads to certify they had corrected deficiencies.                                    X                X          X

2. Communication of Policy Strategy – Consistently communicate and enforce Postal Service policy
   regarding violent and inappropriate behavior.
Condition         PCs disseminated FY 2006 current local zero tolerance policies to all PC employees through stand-up talks and
                                                                                                                                                9                9          9
                  new employee orientation classes.
                  Some communication improvements are needed.                                                                                   X                X          X
                  •   The zero tolerance policy was not posted in four of the 12 facilities visited.                                            9                X          X
                  •   The zero tolerance policy was not current in one of the eight facilities that posted it.                                  X                9          9
                  •
                                                                   15
                      The zero tolerance policy was not complete.                                                                               9                X          9

Cause          HR and facility managers believed the current policy was posted.                                                                 X                X          X
               HR manager considered the threats and assaults action plan as the local zero tolerance policy.                                                    X
Note:       X indicates the PC was not in compliance, and the cause for non-compliance.
            9 indicates the PC was in compliance.
              no symbol indicates not applicable.




            15
                 The Dallas PC zero tolerance policy did not include procedures for employees to report incidents of violent and inappropriate behavior in the workplace.



                                                                                            16
                 The Postal Service’s Violence Prevention and                                                                                             HM-AR-08-003
                  Response Programs in Three Southwest Area
                  Performance Clusters


     2. Communication of Policy Strategy (Continued) – Consistently communicate and enforce Postal Service
        policy regarding violent and inappropriate behavior.
     Condition      Workplace violence awareness training needed for some employees.                                                          X                X          X
                    •  HR managers ensured most employees (26,110) and TAT core members received the required training.                       9                9          9
                    •  xx xxx xx managers did not ensure all managers, supervisors, and 204b supervisors received the required 8-
                                                                                                                                               X               X          X
                       hour (one time) workplace violence awareness training.

     Cause          *Numbers and locations of 204b supervisors not known, making it difficult xx xx xxxxxxxx to track their training.          X
                    xxxxxxxxxxxx were not aware of the requirement for the 8-hour training course.                                             X                          X
                    xxxxxxxxxx did not periodically review the NTD exception reports to determine the names of the managers and
                                                                                                                                                               X
                    supervisors that did not receive the training.

     Condition      TATs did not fully implement violence prevention strategies to ensure incidents of violent and inappropriate
                                                                                                                                               X               X          X
                    behavior were fully addressed in accordance with the TAT Guide.
                    •   14 incidents reported to two TATs in FY 2006 were not properly addressed.                                                              X          X
                        ¾ 14 did not receive proper case management (including documenting the assessment of the risk level),16
                                                                                                                                                               X          X
                             and were not monitored and tracked to ensure resolution.
                        ¾ 14 had insufficient (or no) documentation which prevented us from determining how they were
                                                                                                                                                               X          X
                             addressed and resolved.
                        ¾ Nine had no documented risk abatement plans (five did).                                                                              X          X
                        ¾ 14 had insufficient (or no) documentation which prevented us from determining if they were immediately
                                                                                                                                                               X          X
                             and firmly responded to.
                    •   Incidents reported to one TAT in FY 2006 were not documented and may not have been addressed (no
                                                     17                                                                                        X
                        incident case files existed).
                    •   Incident tracking logs not properly maintained to show when the incidents were reported and resolved.                  X               X          X

     Cause           xx xxxxxxx did not fully understand the importance of TAT responsibilities.                                                               X
                     •    xxxxxxxxxx believed that, despite findings on the seven incidents, the TAT handled incidents appropriately.                          X
                     •    xxxxxxx believed maintaining follow-up emails on the computer was sufficient xxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                                                                                                               X
                          xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
                     Significant management turnover.18                                                                                        X
                     xxxxxxx believed cases were not properly managed and the incident log was not maintained because the WIA
                                                                                                                                                                          X
                     position was vacant xxxxxxxxxxxxxxxxx. 19
     * This is a headquarters issue we will address in a capping report.


16
   The TAT Guide defines the priority risk levels as priority 1 - extreme risk; priority 2 - high risk; priority 3 - low or moderate risk; and priority 4 - no risk.
17
   For example, in September 2003, the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx Manager issued a memorandum to all Executive and Administrative
Schedule employees expressing the Inspection Service’s concern that the PC was failing to meet notification requirements for alleged incidents of violence and threats.
The memorandum emphasized the importance of notifying the Inspection Service when incidents occur.
18
   During FY 2006, the xxxxxxxxxxxxxx appointed new district, senior plant, HR and labor relations managers, and a new xxxxxxxxxxx Postmaster.
19
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.


                                                                                               17
            The Postal Service’s Violence Prevention and                                                                                    HM-AR-08-003
             Response Programs in Three Southwest Area
             Performance Clusters


3. Environment and Culture Strategy – Create a work setting and maintain an atmosphere perceived to be
   fair and free from unlawful and inappropriate behavior.
Condition          xxxxxxxxxxx took positive steps toward creating an atmosphere perceived to be fair and free from unlawful and
                   inappropriate behavior.                                                                                              9       9          9

                   • xxxxxxxxxxx used VOE Survey results and focus groups, grievances, EEO complaints, climate assessments,
                     and Flash Reports to identify and follow up on events that could escalate the potential for violence.              9       9          9

                   Some improvements are needed.                                                                                        X       X          X
                   • xxxxxxxxxxx did not maintain documentation on how they used other climate indicators to monitor and evaluate
                                                                                                                                        X       X          X
                     the workplace environment (including the frequency) except for the VOE Survey results.

Cause             xxxxxxxxxxx considered evaluations of the VOE Survey results sufficient documentation of workplace climate
                                                                                                                                        X       X          X
                  indicators.

Condition         TATs did not always consistently conduct quarterly meetings, properly prepare meeting minutes, and disseminate
                                                                                                                                        X       X          9
                  minutes to required TAT members.
                  TATs had the requisite number and type of team members required by the TAT Guide.                                     9       9          9

Cause             xxxxxxxxxxxxxx was not knowledgeable of TAT responsibilities and how the team should operate.                         X
                  xxxxxxxxxxxxxxxxxx believed informal meetings were sufficient to keep potential violence in the workplace incidents
                                                                                                                                                X
                  from escalating.

Condition         Measures to gauge TATs’ success were not documented and may not have been adequate.                                           X          X
                  •  TATs informally discussed their performance during team meetings.                                                                     9
                  •  TATs informally used TAT discussions, climate assessments, VOE team office visits,20 and VOE Survey
                                                                                                                                                9
                     scores.
                  •  TATs did not document informal measurements.                                                                               X          X
                  TATs did not discuss or establish measures to evaluate the team’s performance.                                        X

Cause             xxxxxxxxx was not aware of the requirement to measure team’s performance.                                             X
                  xxxx believed the informal measures accomplished the intended purpose.                                                        X          X




            20
                 The PC created a VOE team that would visit and discuss workplace climates with facility employees.


                                                                                           18
            The Postal Service’s Violence Prevention and                                                                               HM-AR-08-003
             Response Programs in Three Southwest Area
             Performance Clusters


Objective 2 – Determine the adequacy of oversight of the workplace violence prevention
             program at the area and PC levels.
Oversight of the Workplace Violence Prevention and Response Program
Condition      xxxxxxxxxxxxxx managers did not provide adequate oversight of the violence prevention and response programs.        X       X          X
               •   xxxxxxxxxxx did not ensure TATs implemented many required policies and procedures to reduce the potential
                                                                                                                                   X       X          X
                   for violence related to security, communication of policy, and the environment and culture.
               •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx did not ensure that appropriate TAT processes were
                                                                                                                                   X       X          X
                   followed and performance measures were documented.
               •   xxxxxxxxxxxxxxx provided assistance to the PCs when requested for incidents that could not be resolved at the
                                                                                                                                   9       9          9
                   PC level.

Cause          xxxxxxxxxxx relied on xxxxxxxxxx to ensure compliance with the TAT Guide requirements.                              X       X          X
               xxxxxxxxxxxxxxx relied on the xxxxxxxxxxx to ensure compliance with the TAT Guide.                                  X       X          X




                                                                                      19
The Postal Service’s Violence Prevention and               HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

       APPENDIX F. ALBUQUERQUE PERFORMANCE CLUSTER
   FISCAL YEAR 2006 VOICE OF THE EMPLOYEE SURVEY RESULTS
   FOR QUESTIONS RELATED TO THE WORKPLACE ENVIRONMENT




                                                Redacted




* xxxxxxxxxxxxxxxxxxxxxxxxxxxx.

xxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                  20
The Postal Service’s Violence Prevention and               HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

  APPENDIX G. DALLAS PERFORMANCE CLUSTER FISCAL YEAR
2006 VOICE OF THE EMPLOYEE SURVEY RESULTS FOR QUESTIONS
         RELATED TO THE WORKPLACE ENVIRONMENT




                                                Redacted




* xxxxxxxxxxxxxxxxxx

xxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                  21
The Postal Service’s Violence Prevention and               HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

    APPENDIX H. FORT WORTH PERFORMANCE CLUSTER FISCAL
    YEAR 2006 VOICE OF THE EMPLOYEE SURVEY RESULTS FOR
     QUESTIONS RELATED TO THE WORKPLACE ENVIRONMENT




                                                Redacted




* xxxxxxxxxxxxxxxxxxxxxxxxxxxx.

xxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                  22
The Postal Service’s Violence Prevention and           HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters

                   APPENDIX I. MANAGEMENT’S COMMENTS




                                               23
The Postal Service’s Violence Prevention and        HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters




                                               24
The Postal Service’s Violence Prevention and        HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters




                                               25
The Postal Service’s Violence Prevention and        HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters




                                               26
The Postal Service’s Violence Prevention and        HM-AR-08-003
 Response Programs in Three Southwest Area
 Performance Clusters




                                               27
